                 

                        U.S. ENVIRONMENTAL PROTECTION AGENCY 

                        OFFICE OF INSPECTOR GENERAL 




                        EPA Needs to Manage
                        Nanomaterial Risks More
                        Effectively
                        Report No. 12-P-0162               December 29, 2011




Scan this mobile code
to learn more about
the EPA OIG.
Report Contributors:	                                Natalie Hanson
                                                     Jeffrey Harris
                                                     Lauretta A. Joseph
                                                     Kalpana Ramakrishnan
                                                     Thane Thompson




Abbreviations

CBI            Confidential business information
EPA            U.S. Environmental Protection Agency
FIFRA          Federal Insecticide, Fungicide, and Rodenticide Act
NNI            National Nanotechnology Initiative
NMSP           Nanoscale Materials Stewardship Program
OAR            Office of Air and Radiation
OCSPP          Office of Chemical Safety and Pollution Prevention
OECA           Office of Enforcement and Compliance Assurance
OIG            Office of Inspector General
OMB            Office of Management and Budget
OPP            Office of Pesticide Programs
OPPT           Office of Pollution Prevention and Toxics
ORD            Office of Research and Development
OW             Office of Water
SNUR           Significant New Use Rule
TSCA           Toxic Substances Control Act


Cover photos: From left: hollow silica nanoshells for imaging and targeted drug and gene
delivery treatments for cancer (photo credit William Trogler, Ph.D. and Sadik Esener, Ph.D.);
quantum dots being used to reveal the molecular fingerprints of individual cells for early cancer
detection (photo credit Jian Liu, Ph.D. and Shuming Nie, Ph.D.); ZnO wire arrays (photo credit
Z.L. Wang, Ph.D.); and a 5-micron bead surrounded by 60-nanometer gold particles (photo
credit Ximei Qian, Ph.D. and Shuming Nie, Ph.D.). (photographs courtesy National Cancer
Institute http://nano.cancer.gov/learn/understanding/library.asp)




   Hotline
   To report fraud, waste, or abuse, contact us through one of the following methods:

   e-mail:    OIG_Hotline@epa.gov.                      write:   EPA Inspector General Hotline
   phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
   fax:       202-566-2599                                       Mailcode 2431T
   online:    http://www.epa.gov/oig/hotline.htm.                Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                            12-P-0162
                                                                                                   December 29, 2011
                        Office of Inspector General


                        At a Glance
Why We Did This Review              EPA Needs to Manage Nanomaterial Risks More Effectively

The purpose of this review was       What We Found
to determine how effectively
the U.S. Environmental              We found that EPA does not currently have sufficient information or processes to
Protection Agency (EPA) is          effectively manage the human health and environmental risks of nanomaterials.
managing the human health and       EPA has the statutory authority to regulate nanomaterials but currently lacks the
environmental risks of              environmental and human health exposure and toxicological data to do so
nanomaterials.                      effectively. The Agency proposed a policy under the Federal Insecticide,
                                    Fungicide, and Rodenticide Act to identify new pesticides being registered with
Background                          nanoscale materials. After minimal industry participation in a voluntary data
                                    collection program, the Agency has proposed mandatory reporting rules for
Nanomaterials are currently         nanomaterials under the Federal Insecticide, Fungicide, and Rodenticide Act, and
used in a wide variety of           is also developing proposed rules under the Toxic Substances Control Act.
applications, including
consumer products, health care,     However, even if mandatory reporting rules are approved, the effectiveness of
transportation, energy, and         EPA’s management of nanomaterials remains in question for a number of
agriculture. The Agency             reasons:
considers nanomaterials as
chemical substances that are               Program offices do not have a formal process to coordinate the
controlled at the scale of                  dissemination and utilization of the potentially mandated information.
approximately one-billionth of             EPA is not communicating an overall message to external stakeholders
a meter. EPA has the authority,             regarding policy changes and the risks of nanomaterials.
through several environmental              EPA proposes to regulate nanomaterials as chemicals and its success in
statutes, to regulate                       managing nanomaterials will be linked to the existing limitations of those
nanomaterials. Although the                 applicable statutes.
development of nanomaterials
                                           EPA’s management of nanomaterials is limited by lack of risk
and nanomaterial-enhanced
                                            information and reliance on industry-submitted data.
products is expanding rapidly,
the health implications of
nanomaterials have not yet          These issues present significant barriers to effective nanomaterial management
been determined.                    when combined with existing resource challenges. If EPA does not improve its
                                    internal processes and develop a clear and consistent stakeholder communication
                                    process, the Agency will not be able to assure that it is effectively managing
                                    nanomaterial risks.

For further information, contact     What We Recommend
our Office of Congressional and
Public Affairs at (202) 566-2391.   We recommend that the Assistant Administrator for Chemical Safety and
                                    Pollution Prevention develop a process to assure effective dissemination and
The full report is at:
www.epa.gov/oig/reports/2012/       coordination of nanomaterial information across relevant program offices. The
20121229-12-P-0162.pdf              Agency agreed with our recommendation and provided a corrective action plan
                                    with milestone dates. This recommendation is open with agreed-to actions
                                    pending.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                 THE INSPECTOR GENERAL




                                        December 29, 2011

MEMORANDUM


SUBJECT:	 EPA Needs to Manage Nanomaterial Risks More Effectively
          Report No. 12-P-0162


FROM:	         Arthur A. Elkins, Jr.
               Inspector General

TO:	           Jim Jones
               Acting Assistant Administrator for Chemical Safety and Pollution Prevention


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

Because you have provided a corrective action plan with milestone dates, you are not required
to provide a written response to this report. Should you choose to provide a response, your
response will be posted on the OIG’s public website, along with our memorandum commenting
on your response. Your response should be provided as an Adobe PDF file that complies with
the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as amended.
The final response should not contain data that you do not want to be released to the public; if
your response contains such data, you should identify the data for redaction or removal. We
have no objections to the further release of this report to the public. We will post this report to
our website at http://www.epa.gov/oig.

If you or your staff have any questions, please contact Wade Najjum at (202) 566-0827 or
najjum.wade@epa.gov; Jeffrey Harris at (202) 566-0831 or harris.jeffrey@epa.gov; or Lauretta
Joseph, Project Manager, at (212) 637-3049 or ansah.lauretta@epa.gov.
EPA Needs to Manage Nanomaterial Risks                                                                                   12-P-0162
More Effectively




                                  Table of Contents


Chapters
   1	   Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Prior Reports ...............................................................................................      7     

                Noteworthy Achievements ...........................................................................                7     

                Scope and Methodology ..............................................................................               8     


   2	   EPA Does Not Have Sufficient Information and Processes to 

        Effectively Manage Nanomaterial Risks...........................................................                           9


                Formal Coordination Process Needed to Prioritize Work and

                   Assess Nanomaterial Risks ....................................................................                  9

                EPA Should Improve Communicating Nanomaterial Information to the 

                   General Public ........................................................................................        10 

                Existing TSCA Limitations Challenge Nanomaterial Management..............                                         10 

                Limitations in Detection and Assessment Inhibit 

                   Effective Management ............................................................................              11 

                Conclusions .................................................................................................     11     

                Recommendation ........................................................................................           12     

                Agency Comments and OIG Evaluation ......................................................                         12 


   Status of Recommendations and Potential Monetary Benefits..............................                                        13




Appendices
   A	   Agency Response and OIG Comment..............................................................                             14 


   B	   Distribution .........................................................................................................    23 

                                     Chapter 1

                                     Introduction
Purpose
            The purpose of this review was to determine how effectively the U.S.
            Environmental Protection Agency (EPA) is managing the human health and
            environmental risks of nanomaterials.

Background
            Nanomaterials encompass a wide range of substances based on the understanding
            and control of matter at the scale of nanometers—the equivalent of one-billionth
            of a meter. Nanomaterials are nanoscale materials or materials that contain
            nanoscale structures internally or on their surfaces. Nanomaterials are currently
            used in a wide variety of applications, including consumer products, health care,
            transportation, energy, and agriculture. While some nanomaterials can occur
            naturally, this report focuses on intentionally manufactured nanomaterials.
            Figure 1 illustrates the relative size of nanomaterials.

            Figure 1: Size and scale of nanomaterials




            Source: National Nanotechnology Institute website.




12-P-0162                                                                                 1
                 Though the development of nanomaterials and nanomaterials-enhanced products
                 is expanding rapidly, the health or environmental implications of nanomaterials
                 have not yet been determined.1 Research has shown that exposure to
                 nanomaterials may produce effects that differ from those observed with
                 conventionally scaled materials. Some nanomaterials may cross the human blood-
                 brain or placental barrier in ways that larger particles cannot. 2,3

                 The many applications of nanomaterials present new opportunities to improve
                 products, processes, and technologies. Some of these applications may improve
                 how contaminants are measured, monitored, managed, and minimized in the
                 environment. However, there also exists the potential for exposures to
                 nanomaterials during product manufacturing, use, and/or at the end of the product
                 life cycle through recycling, landfills, and waste incineration. Depending on the
                 individual properties, nanomaterials may be able to enter the human body through
                 the skin, through ingestion, and through inhalation. For example, because some
                 carbon nanotubes resemble asbestos fibers, researchers are questioning whether
                 they may lead to diseases such as mesothelioma. Further, research has shown that,
                 when combined with ultraviolet light and sweat, nanotitanium dioxide in
                 sunscreen is capable of altering proteins in the skin. More research is needed to
                 determine whether this may cause skin diseases.

                 Risks to public health are dependent, in part, on exposure. Public exposure has
                 likely been limited to date. Table 1 illustrates examples of commercial
                 applications of nanomaterials and their respective potential routes of exposure to
                 the public.




1
  EPA's website states that in some cases there may be beneficial characteristics of nanomaterials when used for 

drug delivery and disease treatments. EPA acknowledges that this characteristic could also result in unintended 

impacts for manufactured nanomaterials not designed for disease therapies. 

2
  P. Wick, A. Malek, P. Manser, D. Meili, X. Maeder-Althaus, L. Diener, P.A. Diener, A. Zisch, H.F. Krug, U. von 

Mandach, “Barrier Capacity of Human Placenta for Nanosized Materials”, Environmental Health Perspectives, vol. 

118, no. 3, pp. 432-6, March 2010. 

3
  Panyala, NR; Pena-Mendez, EM; Havel, J. (2008). Silver or silver nanoparticles: a hazardous threat to the 

environment and human health? Journal of Applied Biomedicine, 6(3): 117–29. 


12-P-0162                                                                                                     2
 Table 1: Consumer exposure for several types of nanomaterial products
                                                                         Exposed           Potential exposure
   Product type         Release and/or exposure source
                                                                        population               route
                   Product application by consumer to skin           Consumer             Dermal
                   Release by consumer to water supply (e.g.,        General
                                                                                          Ingestion
  Sunscreen        washing with soap and water)                      population
                   Disposal of sunscreen container with residual     General
                                                                                          Inhalation or ingestion
                   sunscreen after use to landfill or incineration   population
  Paints and                                                         Consumers,           Dermal, inhalation or
                   Weathering, disposal
  coating                                                            general population   ingestion
                                                                                          Dermal, inhalation,
                                                                     Consumers,
  Clothing         Wear, washing, disposal                                                ingestion from surface
                                                                     general population
                                                                                          or ground water
                                                                                          Dermal, ingestion from
                                                                     Consumers,
  Electronics      Release at end of life or recycling stage                              surface or ground
                                                                     general population
                                                                                          water
                                                                                          Dermal, inhalation,
                                                                     Consumers,
  Sporting goods   Release at end of life or recycling stage                              ingestion from surface
                                                                     general population
                                                                                          or ground water
 Source: EPA, Nanotechnology White Paper, 2007.

                In 2010, federal support of nanomaterial research and development totaled
                $1.9 billion. Federal research and development efforts are coordinated by the
                National Nanotechnology Initiative (NNI). The NNI creates a framework for
                shared goals, priorities, and strategies for each federal agency to leverage the
                resources of all participating agencies. Along with 25 other federal agencies, EPA
                works with the NNI to conduct research on nanomaterials.

                EPA is one of nine federal agencies that dedicate funding to identify any potential
                adverse effects of nanomaterials and the risks these nanomaterials pose to human
                health and the environment. Each size, formulation, and application of a
                nanomaterial used as a pesticide or industrial chemical could potentially introduce
                a unique risk that EPA is required to understand and address.

                EPA’s Approach to Managing Nanomaterials

                EPA has the statutory authority to regulate nanomaterials during various stages of
                their production, use, and disposal. EPA can regulate nanomaterials during their
                manufacture, formulation, distribution in commerce, use, and/or disposal through
                the Toxic Substances Control Act (TSCA). EPA can regulate nanomaterials in
                pesticides through the Federal Insecticide, Fungicide, and Rodenticide Act
                (FIFRA), the authority under which EPA regulates the sale, distribution, and use
                of pesticide products in the United States. EPA can regulate nanomaterials
                released into the environment using the Clean Air Act; the Clean Water Act; the
                Comprehensive Environmental Response, Compensation and Liability Act; or the
                Resource Conservation and Recovery Act.

                EPA oversees the management of nanomaterial products. The Office of Chemical
                Safety and Pollution Prevention (OCSPP) stated that since 2005 it has received

12-P-0162                                                                                                         3
            and reviewed over 120 new chemical notices under TSCA for nanoscale
            materials, including carbon nanotubes. EPA’s management of nanomaterials
            under TSCA has evolved from a voluntary approach to a regulatory approach. In
            January 2008, EPA began collecting data from manufacturers using the voluntary
            Nanoscale Materials Stewardship Program (NMSP). EPA sought information on
            production, importation, and use; exposures; risk management practices; hazards;
            pollution prevention; and physical and chemical properties. EPA scientists
            intended to use data collected through this program, where appropriate, to aid in
            determining how and whether certain nanoscale materials or categories of
            nanoscale materials present risks to human health and the environment. Although
            29 companies provided data that described or identified 123 nanomaterials, only 4
            companies were willing to participate in the portion of the program that
            encouraged them to sponsor the development of test data and provide that
            information to EPA. Based on the limited response to the program, EPA
            discontinued the NMSP in December 2009 and began developing regulatory
            approaches under Sections 5 and 8(a) of TSCA to collect nanomaterial data from
            manufacturers of industrial chemicals.

            As shown in table 2, EPA is developing proposals for new data reporting
            requirements for FIFRA and TSCA. In July 2010, EPA submitted a request for a
            modification of FIFRA to the Office of Management and Budget (OMB). This
            submission sought to clarify the information collection ability of FIFRA
            regulations by including a description of nanomaterials in the policy, which would
            require manufacturers to submit more nano-specific data. In October 2010, EPA
            submitted a proposed TSCA revision to OMB. Under this proposal, any chemical
            substance from 1 to 100 nanometers will be subject to TSCA’s Significant New
            Use Rule (SNUR). This regulatory revision treats the nanomaterial as a new
            chemical and requires submission of data to EPA at least 90 days prior to
            commencing manufacture of these types of materials.

             On June 17, 2011, EPA issued a Federal Register notice (76 FR 35383) seeking
            comments on how the Agency could use FIFRA Section 6(a)(2) or FIFRA
            Section 3(c)(2)(B) to gain information on what nanoscale materials are in
            pesticide products. The notice also proposed a policy of classifying any
            application for registration of a pesticide product containing nanoscale material as
            an application for a “new” active or inert ingredient.




12-P-0162                                                                                    4
Table 2: New and existing regulations affecting nanomaterials
     Regulation                                       Description                                          Status
                            This change under TSCA would require that production of certain
                            new nanoscale materials would constitute a significant new use
 TSCA 5(a)(2)               of a chemical substance. Manufacturers must notify EPA at least
                                                                                                   Awaiting OMB approval
 Nanomaterial SNUR          90 days before starting production to provide EPA the
                            opportunity to evaluate the intended use and, if necessary, to
                            prohibit or limit its use.
                            This change under TSCA would require that persons who
 TSCA 8(a)                  manufacture nanomaterials already in commerce notify EPA of
 Information Gathering      information including production volume, methods of                    Awaiting OMB approval
                            manufacture and processing, exposure and release information,
                            and available health and safety data.


                            OCSPP stated that since 2005 it has received and reviewed over
                            120 new chemical notices under TSCA for nanoscale materials,
 TSCA Section 5 New
                            including carbon nanotubes. The Agency has taken a number of           Ongoing
 Chemical Review
                            actions to control and limit exposures to these chemicals utilizing
                            its authority under TSCA Sections 5(e) and 5(a) (2).


                            EPA issued a Federal Register notice on June 17, 2011, seeking
                            comments on how the Agency could use FIFRA Section 6(a)(2)
 FIFRA                      or FIFRA Section 3(c)(2)(B) to gain information on what                Proposal currently
                            nanoscale materials are in pesticide products. The notice also         undergoing revisions by
 6(a)(2) or 3(c)(2)(b)      proposed a policy of classifying any application for registration of   EPA
                            a pesticide product containing nanoscale material as an
                            application for a “new” active or inert ingredient.
Source: OIG analysis.

                   Until the TSCA and FIFRA reporting requirements are complete, EPA will
                   continue to lack the information to determine how and whether certain nanoscale
                   materials or categories of nanoscale materials present risks to human health and
                   the environment.

                   EPA has determined that nanomaterials will be regulated under existing statutes
                   for chemicals. Therefore, EPA’s effectiveness in managing nanomaterials will
                   depend upon the effectiveness of its existing regulatory frameworks under FIFRA
                   and TSCA. In our 2010 evaluation of TSCA’s New Chemicals Program, we
                   identified a number of shortcomings:

                         	 The program was limited by an absence of toxicity testing and
                            environmental fate data, and a reliance on modeling, as TSCA does not
                            require upfront testing. Because EPA depends on information reported by
                            industry, it can initially fail to identify chemical risks not self-disclosed by
                            manufacturers.

                         	 The program was limited by TSCA’s requirement to protect claims of
                            confidential business information (CBI) on industry data submissions. The
                            report stated that the Office of Pollution Protection and Toxics (OPPT)
                            Chief of TSCA Security Staff estimated that up to 90 percent of TSCA
                            premanufacture notices contain claims of CBI. Excessive CBI

12-P-0162                                                                                                            5
                         designations inhibit independent peer reviews, oversight by external
                         parties, and information sharing across EPA offices.

                 Program Office Roles and Authority to Regulate Nanomaterials

                 The majority of EPA’s nanomaterial funding has been appropriated to the Office
                 of Research and Development (ORD) to conduct research on nanomaterials.
                 According to the Office of Chemical Safety and Pollution Prevention, it was the
                 first to regulate nanomaterials based on the new chemical requirements under
                 TSCA Section 5(e).

                         Office of Research and Development

                         ORD is leading scientific efforts to understand the potential risks to
                         human health and the environment from exposure to nanomaterials. In
                         2008, ORD created the Nanomaterials Research Strategy document to help
                         guide the Agency in answering key science questions regarding the
                         source, fate, exposure, risk assessment, and risk management of
                         nanomaterials. In 2010, EPA received approximately $18 million for
                         nanotechnology research efforts, and ORD had approximately 35 full-time
                         equivalents4 engaged in both research and grant oversight. ORD plans to
                         incorporate nanomaterial research into a broader Chemical Safety and
                         Sustainability Research Program. According to ORD, this program is
                         intended to combine the use of high-throughput chemical screening and
                         prioritization approaches used in other toxicology efforts with ongoing
                         nanomaterial research. An ORD representative stated that if the TSCA and
                         FIFRA regulatory changes take effect, the additional information that
                         could be collected would be used to guide ORD’s research efforts as the
                         Chemical Safety and Sustainability Research Program evolves into an
                         integrated chemicals-related research program.

                         Office of Chemical Safety and Pollution Prevention

                         OCSPP reviews, regulates, and evaluates the risks of industrial chemicals
                         and pesticides sold in and imported into the United States. OCSPP
                         currently has approximately five full-time equivalents working on
                         nanomaterial activities. Within OCSPP are OPPT and the Office of
                         Pesticide Programs (OPP). The primary responsibility of OPPT is to
                         implement TSCA and the Pollution Prevention Act. Under these laws,
                         EPA evaluates new and existing chemicals and their risks, and finds ways
                         to prevent or reduce pollution before it enters the environment. OPPT also
                         seeks to promote understanding of chemical risks by providing
                         information to the public. OPP is responsible for reviewing and registering
                         pesticides under FIFRA. One of OPP’s primary efforts is evaluating

4
 FTE employment is the total number of hours worked, divided by the compensable hours applicable to each fiscal
year. There are about 60 ORD scientists who spend some of their time on nanomaterials-related research.

12-P-0162                                                                                                   6
                   potential new pesticides. Nanomaterials are currently being included in
                   some pesticides. As nanomaterials become more widely used in
                   commerce, OPP expects that the need to review different types of
                   nanomaterial formulations will increase.

                   Other EPA Program Offices

                   Several other EPA program offices have the statutory authority to regulate
                   nanomaterials to address risks posed in the environment. The Office of Air
                   and Radiation (OAR), the Office of Solid Waste and Emergency
                   Response, and the Office of Water (OW) all have statutory authority to
                   regulate nanomaterials in their respective environmental media.
                   Additionally, the Office of Enforcement and Compliance Assurance
                   (OECA) will have the responsibility to enforce any regulations upon
                   enactment.

Prior Reports
            In the EPA Office of Inspector General (OIG) Report No. 10-P-0066, EPA Needs
            a Coordinated Plan to Oversee Its Toxic Substances Control Act Responsibilities,
            issued February 17, 2010, we found that EPA’s management of chemical risks
            under TSCA was limited by an absence of chemical test data, reliance on risk
            modeling rather than on actual test results, and a lack of transparency. The report
            also stated that oversight of regulatory actions designed to reduce known risks
            was a low priority, and that the resources allocated by EPA were not
            commensurate with the scope of monitoring and oversight work. In addition, we
            found that EPA’s procedures for handling CBI requests were predisposed to
            protect industry information rather than to provide public access to health and
            safety studies.

            The U.S. Government Accountability Office issued Report 10-549,
            Nanomaterials Are Widely Used in Commerce, but EPA Faces Challenges in
            Regulating Risk, in May 2010. This report reviewed the current prevalence of
            nanoscale materials in commerce, discussed the challenges related to regulating
            nanoscale materials, and recommended that EPA utilize the authorities of FIFRA
            and TSCA to regulate nanomaterials.

Noteworthy Achievements

            EPA has been working to identify the risks that nanomaterials pose to human and
            the environment. In 2005, EPA launched a collaborative public process to design
            and develop the NMSP, and the program was initially implemented in 2008
            NMSP encouraged manufacturers to develop and submit information on
            nanoscale materials that were already in commerce. While EPA’s NMSP did not
            provide the results that the Agency was hoping to achieve, it was a positive step in
            determining how to effectively gather information about nanomaterials.

12-P-0162                                                                                    7
            In 2007, EPA published the Nanomaterial White Paper to outline general
            nanomaterial issues for the Agency to focus upon. EPA also published its
            Nanomaterials Research Strategy in 2009, intended to guide ORD’s nanomaterial
            research program. EPA has also been active in sharing information with other
            international organizations, including the Organization for Economic Cooperation
            and Development and the International Organization for Standardization.

Scope and Methodology
            We conducted this performance evaluation in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the evaluation to obtain sufficient, appropriate evidence to provide a reasonable
            basis for our findings and conclusions based on our objectives. We believe that
            the evidence obtained provides a reasonable basis for our findings and
            conclusions based upon our objectives. We conducted this evaluation from
            October 2010 through September 2011.

            The scope of this evaluation focused on EPA’s responsibilities for oversight,
            assessment, and regulation of nanomaterials. As a result, we interviewed all
            applicable media offices, including OAR, OCSPP, OECA, Office of Solid Waste
            and Emergency Response, and OW. We interviewed the Office of General
            Counsel to determine its assessment of EPA’s statutory authority to regulate
            nanomaterials. We reviewed the American Bar Association analysis of EPA’s
            authority to regulate nanomaterials under TSCA; FIFRA; the Clean Air Act; the
            Clean Water Act; the Comprehensive Environmental Response, Compensation
            and Liability Act; and the Resource Conservation and Recovery Act.

            We conducted interviews at a wide variety of academic institutions, including the
            Smalley Institute for Nanoscale Science and Technology at Rice University, the
            University of Michigan Risk Science Center, and the University of Dublin. We
            interviewed representatives of nongovernmental organization such as Resources
            for the Future, the Environmental Defense Fund, and the Silicon Valley Toxics
            Coalition. We also interviewed representatives from the International
            Organization for Standardization and the Organization of Economic Cooperation
            and Development to better understand global aspects of nanomaterial regulation.
            Finally, we reviewed nanomaterial management strategies and regulations from
            Canada, the United Kingdom, Australia, and Japan.




12-P-0162                                                                                 8
                                  Chapter 2

                                   
    EPA Does Not Have Sufficient Information and 

 Processes to Effectively Manage Nanomaterial Risks
 
            At the time of our review, EPA did not have sufficient information or processes to
            effectively manage the human health and environmental risks of nanomaterials.
            EPA does not have a formal process to coordinate the dissemination and
            utilization of nanomaterial information or communicate nanomaterial risks. EPA
            is not clearly communicating policy changes and the risks of nanomaterials to
            external stakeholders. Also, existing TSCA limitations and resource issues
            challenge EPA’s ability to assess the risks of nanomaterials using its existing
            models. Finally, technological limitations inhibit nanomaterial detection in the
            environment, and a reliance on industry data impedes effective nanomaterial
            management. If these challenges are not resolved, EPA will continue to lack
            assurance that it is making effective nanomaterial management decisions.

Formal Coordination Process Needed to Prioritize Work and Assess 

Nanomaterial Risks 

            EPA does not have an Agency-wide, formal process to disseminate manufacturer
            data gathered from TSCA and FIFRA data calls to program offices outside of
            OCSPP. Program offices such as ORD need manufacturer data to prioritize work
            and assess risks. OCSPP staff stated that both OPP and OPPT have established
            relationships with specific individuals in ORD and in the Office of Science Policy
            to guide discussions, share information, and review documents specific to
            nanomaterials. However, this information sharing is not facilitated by a formal
            process; rather, it depends on personal relationships between program office staff.
            Information sharing based on personal relationships can be easily disrupted by
            transfers, travel, retirements, or other personal factors.

            Coordinated sharing of nanomaterial data call information will also be important
            if additional regulatory actions become necessary. For instance, OW could use the
            information-gathering provisions of the Clean Water Act to collect information
            about potential effluent discharges containing nanomaterials. While OW has not
            employed this authority, coordination with other offices will be important to
            determine whether and when to employ that authority. Additionally, it will be
            important for OECA to effectively enforce regulations to ensure that data
            submission requirements are followed. OECA officials stated that OECA has
            challenges developing enforcement cases for nanomaterials, and must rely heavily
            on OCSPP’s expertise.

            Prior reports have also identified the need for more formal coordination. External
            experts have recommended that the Agency convene a standing intra-Agency
            group to foster information sharing on nanomaterial science and policy issues. In

12-P-0162                                                                                   9
                2007, OCSPP convened such a group, but, according to OCSPP staff, it was
                disbanded in 2008 after only a few meetings. Because of the growing number of
                nanomaterial products entering the marketplace and the anticipated receipt of new
                TSCA and FIFRA data following approval of the requested information-gathering
                rule changes, it will be increasingly necessary for these program offices to
                formally share information and coordinate their efforts.

EPA Should Improve Communication of Nanomaterial Information to
the General Public
                Through Federal Register notices, program office Web pages, public
                presentations, and meetings, EPA has sought to communicate information related
                to nanomaterials and to gather input from stakeholders. However, the Agency as a
                whole has not provided a transparent overall message about nanomaterials to the
                general public. For some important and/or controversial topics, such as lead
                exposures and hydraulic fracturing, the Agency maintains websites that provide
                an overall picture of the topic, including safety concerns and the Agency’s related
                activities. However, there is no such website for nanomaterials. Several program
                offices have nanomaterial-related pages, but these pages only provide information
                related to that particular program’s activities.

                Reports published by the Woodrow Wilson International Center for Scholars in
                2005 and 20095 cautioned that poor public communication of nanomaterial risks
                could threaten the beneficial advancements of the technology and lead to a lack of
                public trust in the government to make the right decisions. The 2005 report
                concluded that the public wants more information in order to make informed
                decisions about nanomaterials.

                The Agency should be prepared to communicate to the public any nonconfidential
                risk information generated or collected through its FIFRA, TSCA, and research
                activities. Because nanomaterials is an emerging issue, it will be important for
                EPA to keep the public informed on the benefits and risks, how the public might
                be exposed, and what regulatory approach the Agency is taking.

Existing TSCA Limitations Challenge Nanomaterial Management
                Nanomaterials will pose additional challenges to EPA’s TSCA programs. As
                identified in a prior OIG report, the EPA New Chemicals Program is limited by
                resources, a lack of information on new chemicals, and its resultant dependence
                on modeling to conduct risk assessments. These shortcomings will be exacerbated
                by the fact that, according to OPPT representatives, the predictive models they
                use for traditional chemicals may not be applicable to nanomaterials. Because


5
 Jane Macoubrie, Informed Public Perceptions of Nanotechnology and Trust in Government, 2005; Dan M. Khan
and David Rejeski, Toward a Comprehensive Strategy for Nanotechnology Risk Communication, 2009.

12-P-0162                                                                                              10
                  OPPT relies on self-reported data from industry, it may miss chemical risks that
                  manufacturers have not disclosed.

                  In addition, the 2010 U.S. Government Accountability Office report identified
                  several challenges for the Agency in assessing the risks of nanomaterials using its
                  existing models. These challenges include the potential for variations in toxicity
                  corresponding to small differences in the size, shape, surface area, and reactivity
                  of each individual nanomaterial. As a result, accurately assessing any risks of new
                  nanomaterials will be difficult for the Agency.

Limitations in Detection and Assessment Inhibit Effective Management
                  EPA faces technological limitations in its ability to manage nanomaterials. As
                  stated earlier, technology may not currently exist to detect nanomaterials in the
                  ambient environment or to remove them if they are found. Thus, the Agency may
                  not be able to monitor, identify, and remediate nanomaterial contamination if it
                  were to occur in the natural environment. Traditional toxicological screenings for
                  nanomaterials are costly and time consuming. According to a senior ORD official,
                  traditional toxicological studies for chemicals cost approximately $10 million and
                  endure for 5 years. Although more resources are needed, the Agency is in the
                  process of testing a new high-throughput screening system called ToxCast,6
                  which is intended to allow the Agency to more rapidly assess chemicals
                  (including nanomaterials). Given EPA’s resource limitations, potential budget
                  cuts, and the findings in our prior TSCA evaluation, the costs associated with
                  current methods to develop toxicological data may not be suited for nanomaterial
                  data generation.

Conclusions
                  EPA does not have sufficient information to determine the risks nanomaterials
                  pose to human health and the environment. Without a formal coordination
                  process, EPA depends on informal relationships between program office staff to
                  prioritize nanomaterial research efforts and communicate nanomaterial risks.
                  Further, industry stakeholders and the public are not receiving an overall message
                  about policy changes or nanomaterial risks. These management issues, combined
                  with the challenges of existing TSCA limitations, resource constraints, and
                  limitations on technical detection and risk assessment, provide significant barriers
                  to effective nanomaterial management. If EPA does not improve its internal
                  coordination and develop a clear and consistent stakeholder communication
                  process, the Agency will not be able to assure that it is effectively managing
                  nanomaterial risks.



6
  EPA launched ToxCast to forecast toxicity using high-throughput screening. This screening examines hundreds of
thousands of chemicals to identify potential effects. In phase 2 of ToxCast, EPA is testing additional chemicals, 50
to 60 of which will be nanoscale materials.

12-P-0162                                                                                                        11
Recommendation
            We recommend that the Assistant Administrator for Chemical Safety and
            Pollution Prevention:

               1.		 Develop a process to assure the effective dissemination and coordination
                    of nanomaterial information across relevant program offices.

Agency Comments and OIG Evaluation
            The Agency agreed to our recommendation for a formal process to assure the
            effective dissemination and coordination of nanomaterial information across
            relevant program offices, and provided a corrective action plan with milestone
            dates. The Agency also suggested a revised report title, to which the OIG agreed.

            The Agency also provided additional information regarding OCSPP’s ongoing
            efforts to assess and manage the health and environmental risks of nanomaterials.
            It identified numerous activities to demonstrate nanomaterial-related efforts at the
            intra-Agency, interagency, and intergovernmental levels. The OIG did note most
            of these activities while conducting the evaluation. We added a “Noteworthy
            Achievements” section to chapter 1 of the report, which gives a brief overview of
            these activities.

            EPA did not agree with the OIG finding that the Agency is not clearly
            communicating nanomaterial information to the public. However, the OIG still
            believes that the Agency, as a whole, should provide a transparent overall
            message and could make better use of its website to do so. The OIG believes that
            as the Agency collects and gathers more information and takes further actions on
            nanomaterials, it will be important to keep the public informed of the benefits,
            risks, and potential exposures to nanomaterials, as well as EPA’s regulatory
            approach. The Agency’s detailed response with the OIG’s evaluation is provided
            in appendix A.




12-P-0162                                                                                    12
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                Planned
    Rec.     Page                                                                                              Completion   Claimed    Agreed-To
    No.       No.                        Subject                       Status1        Action Official             Date      Amount      Amount

     1        12    Develop a process to assure the effective              O     Assistant Administrator for    07/31/12
                    dissemination and coordination of nanomaterial               Office of Chemical Safety
                    information across relevant program offices.                  and Pollution Prevention




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is unresolved with resolution efforts in progress




12-P-0162                                                                                                                                   13
                                                                                         Appendix A

                Agency Response and OIG Comment

                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                WASHINGTON, D.C. 20460




                                                                                   OFFICE OF CHEMICAL SAFETY
MEMORANDUM	                                                                        AND POLLUTION PREVENTION


SUBJECT:        Response to OIG Draft Report No. OPE-FY11-001: “EPA Cannot Effectively
                Assess or Manage Nanomaterial Risks”

FROM:           Stephen A. Owens
                Assistant Administrator

TO: 	          Arthur A. Elkins, Jr.
               Inspector General

This memorandum is in response to the Office of Inspector General’s (OIG) September 30, 2011,
Draft Report entitled “EPA Cannot Effectively Assess or Manage Nanomaterial Risk.” The
Office of Chemical Safety and Pollution Prevention (OCSPP) appreciates the opportunity to
comment on this report.

While OCSPP recognizes the significant research that was done by the OIG’s staff to prepare the
Draft Report, the report could be improved by correcting factual errors and by including
additional information on the substantial efforts that OCSPP already is undertaking to address
potential health and environmental risks from the use of nanomaterials. I am highlighting several
key items below, and others are discussed in more detail in the attached technical comments.

First, the title of the report significantly overstates the actual findings set forth in the body of the
report, and for that reason, gives a misleading impression about both EPA’s authority over
nanomaterials and the actions the EPA already has been taking in this area. The title should more
accurately read, “EPA Needs to Manage Nanomaterial Risks More Effectively,” and we
respectfully request that the title be changed accordingly. Indeed, the Draft Report contains only
a single recommendation, which simply states that the Agency should develop a process to
facilitate the distribution of information regarding nanomaterials across EPA. The current title
gives the inaccurate impression that EPA does not have authority to oversee nanomaterials, and
the limited scope of the recommendation and the findings in the Draft Report do not support the
sweeping declaration in the Draft Report that EPA “cannot effectively… manage nanomaterials.”




12-P-0162                                                                                           14
 OIG Response: We changed the report title as suggested.

There already is an existing process for coordination between OCSPP, the Office of Research
and Development and other program offices, but OCSPP nevertheless supports the OIG’s
recommendation that the Agency establish a more formal process. Please see the attached
Corrective Action Plan for more details on our approach to implementing this recommendation,
which we believe can be accomplished during fiscal year 2012.

Additionally, the Draft Report does not discuss actions that the Agency already is taking to
assess and manage potential health and environmental risks from nanomaterials under both the
Toxic Substances Control Act (TSCA) and the Federal Insecticide, Fungicide, and Rodenticide
Act (FIFRA). Information describing the Agency’s efforts, as discussed below, would help
readers appreciate why the Draft Report’s only recommended corrective action is to establish a
more formal process for internal agency coordination.

 OIG Response: We understand and acknowledge that the Agency has conducted numerous
 activities in the pursuit of effectively managing nanomaterials as described in OCSPP’s
 response. However, the purpose of this report is to present the result of our evaluation, the
 objective of which was “to determine whether EPA is effectively managing the human health
 and environmental risks of nanomaterials.” As such, we did not find it necessary to include
 many of the details OCSPP has described in this response. To provide better context in our
 report and credit the Agency for steps taken to date, we have added a “Noteworthy
 Achievements” section to chapter 1 of the report. This section gives a brief overview of many
 of the activities listed in OCSPP’s response.


Further, contrary to the Draft Report’s statement that EPA is “not clearly communicating
nanomaterial information to the public,” the Agency has taken significant steps to provide
information, seek public input, and engage the public in general on Agency actions to assess and
manage potential health and environmental risks from nanomaterials.

Outlined below are some of the significant steps the Agency has taken regarding its oversight of
nanomaterials and to engage and inform stakeholders and the public on these activities.

 OIG Response: The OIG recognizes that EPA offices have made substantial efforts to
 communicate with the public through the many avenues described in OCSPP’s response. In
 chapter 2 of the report, we added a statement recognizing these efforts, and we changed the
 section heading to read, “EPA Should Improve Communication of Nanomaterial Information
 to the General Public.” It remains the OIG’s conclusion that the Agency as a whole should
 provide a more transparent overall message about nanomaterials, and it could better use its
 website to do so. As our report indicates, as the Agency gathers more information and takes
 further actions on nanomaterials, it will be important to keep the American people well
 informed on nanomaterials’ benefits and risks, exposures, and EPA’s regulatory approach.



12-P-0162                                                                                     15
Intra-agency, Interagency, and Intergovernmental Activities

EPA was an early leader in identifying science and policy issues regarding nanomaterials. In
December 2004, EPA's Science Policy Council created a cross-Agency workgroup charged with
describing key science issues EPA should consider to ensure that society accrues the important
benefits to environmental protection that nanotechnology may offer, as well as to better
understand any potential risks from exposure to nanomaterials in the environment. EPA released
an external peer review draft of the Nanotechnology White Paper in December 2005, and in a
Federal Register notice (70 FR 75812) announced its availability and the opening of a docket for
public comments. After review and consideration of public comments, EPA's Science Policy
Council issued the Nanotechnology White Paper in February 2007. The purpose of the White
Paper was to identify the science issues and needs associated with nanotechnology, to support
related EPA program office needs, and to communicate these nanotechnology science issues to
stakeholders and the public.

OCSPP collaborated closely with the Office of Research and Development (ORD) in the
development of ORD’s Nanomaterial Research Strategy. As an example of this collaboration,
OCSPP established a requirement for carbon nanotube premanufacture notices (PMN) that
companies submit a one-gram sample of their PMN material for inclusion in the ToxCast portion
of ORD’s research on nanomaterials.

EPA participates in a variety of interagency efforts relating to nanotechnology. For example,
OCSPP has taken a leadership role in addressing nanotechnology and nanomaterials as a member
of the White House Emerging Technologies Interagency Policy Coordination Committee
(ETIPC). EPA also was one of the key agencies most involved in the effort by the
Administration to develop a set of principles for regulation and oversight of nanotechnology
applications. The principles, entitled “Policy Principles for the U.S. Decision-Making
Concerning Regulation and Oversight of Nanotechnology and Nanomaterials,” were announced
in June 2011, after an extensive interagency effort in which EPA played a leading role and are
intended to guide the development and implementation of the Administration’s regulatory
approach to nanomaterials and nanotechnology. In addition, in partnership with ORD, OCSPP
has participated in the interagency Nanotechnology Environmental and Health Implications
(NEHI) working group, and through the NEHI contributed to both the 2008 and 2011 National
Nanotechnology Initiative (NNI) strategies for environmental, health, and safety research.

OCSPP chairs the steering committee of the multi-stakeholder NanoRelease Project, which is
composed of risk management experts from government, industry, nongovernmental
organizations, and international organizations. This activity is filling important gaps in our
knowledge of exposure to nanomaterials, and is focused on:

   Providing focus to broad policy debates by working through scenarios under which specific
    engineered nanomaterials might be released from products;
   Examining the full life cycle of products that might act to release nanomaterials;
   Cataloguing and disseminating published and unpublished data and methods (that meet
    minimum criteria) used to evaluate release scenarios;


12-P-0162                                                                                        16
   Developing “state of the science” reports about release measurement for the specific material
    types chosen that describe what is known and what research gaps exist; and
   Enabling improvements, standardization, and widespread use of methods by carrying out
    tests using reference nanomaterial-matrix and positive controls in a “round robin” or similar
    approach.

Coordination and collaboration with the states has been an important element in EPA’s approach
to nanotechnology. For instance, OCSPP’s Office of Pollution Prevention and Toxics (OPPT)
interacted closely with the state of California on its carbon nanotube survey activities, including
participating in a stakeholders’ workshop convened by California agencies. In addition, OCSPP
and ORD are co-funding a grant to the Environmental Council of the States (ECOS) to support
activities related to emerging chemicals issues, including nanomaterials.

OCSPP also has played a leadership role in international activities related to nanotechnology.
OCSPP chaired the OECD’s Working Party on Manufactured Nanomaterials (WPMN) during its
first program of work, and continues to co-lead the United States delegation to the WPMN. A
number of OCSPP staff have contributed, and continue to contribute, to several WPMN
activities.

In September 2009, the Assistant Administrator for OCSPP gave the keynote address at an
international conference on nanotechnology in which he announced EPA’s increased focus on
potential health and environmental risks from nanomaterials and the Agency’s intention to utilize
its authority under TSCA and FIFRA more fully to assess and manage those risks. In addition,
OCSPP staff led the planning and implementation of a 2010 workshop between U.S. and
European scientists and regulators on nanomaterial science issues, and in 2011 developed a work
plan with the Canadian government to conduct joint activities related to information and
assessment needs for our respective nanotechnology-related regulatory and policy activities.

Activities under TSCA

Under TSCA, EPA is taking significant actions to ensure that new and existing nanoscale
materials are reviewed, that information on potential risks is collected and that any necessary risk
management actions are taken. Since 2005, EPA has received and reviewed over 120 new
chemical notices under TSCA’s new chemicals program for a variety of new nanoscale
materials, including carbon nanotubes, fullerenes, quantum dots and nano-metal oxides. The
Agency has taken a number of actions to control and limit exposures to these chemicals,
including limiting the uses of the nanoscale materials, requiring the use of personal protective
equipment, such as impervious gloves and NIOSH approved respirators, limiting environmental
releases, and requiring testing to generate health and environmental effects data.

In 2006, EPA launched a collaborative public process to design and develop a voluntary effort,
the Nanoscale Materials Stewardship Program (NMSP), to help provide a firmer scientific
foundation for regulatory decisions by encouraging the submission and development of
information on nanoscale materials already in commerce. The Agency conducted scientific peer
consultations on risk management practices in October 2006, and on material characterization in
September 2007 to get public and stakeholder input on the NMSP. In July 2007, EPA announced

12-P-0162                                                                                       17
the availability for public comment of a Concept Paper that outlined the Agency's initial thinking
on the design and development of the NMSP and conducted a public meeting to obtain additional
input in August 2007. EPA finalized the design and format of the NMSP based on written public
comments, and comments received at the public meeting and scientific peer consultations.

In January 2008, EPA announced the final NMSP and invited interested parties to participate in
the program. Thirty-one companies or associations submitted information to EPA covering over
132 nanoscale materials. EPA placed all public versions of NMSP submissions on its TSCA
nanotechnology webpage. A year later, in January 2009, EPA publicly released a report on the
NMSP reporting the information it had received.

Although the NMSP provided EPA with useful information regarding a limited number of
nanoscale materials in commerce, significant environmental health and safety data gaps remain
on a number of nanomaterials. Accordingly, in light of the limitations of the NMSP and the need
to better understand the existing nanomaterials already in commerce, EPA has begun efforts to
develop new data reporting requirements for nanomaterials under TSCA. EPA’s new approach
was forecast by OCSPP’s Assistant Administrator in his September 2009 keynote speech,
including the need to address these data gaps.

In January 2008, after providing the public and stakeholders an opportunity to review and
provide comment, EPA released a paper, “TSCA Inventory Status of Nanoscale Substances –
General Approach (2008),” that outlined EPA's thinking regarding whether a nanoscale material
is a "new" or "existing" chemical substance under TSCA. In October 2008, EPA published a
Federal Register notice regarding the TSCA Inventory status of carbon nanotubes which
indicated that EPA considers carbon nanotubes to be new chemical substances under TSCA, and
therefore they are subject to review prior to introduction into the marketplace.

In October 2010, the Agency submitted to the Office of Management and Budget (OMB) for
interagency review a proposed rule under TSCA Section 8(a) to require reporting of certain
information on nanomaterials by industry and a proposed “significant new use rule” (SNUR)
under TSCA §5(a)(2). Under these proposals, certain chemical substances with nanomaterials
not already manufactured would be subject to a SNUR under TSCA §5(a)(2) that would require
submission of a “significant new use notice” (SNUN) to EPA at least 90 days prior to
commencing manufacture of these types of materials. The notice would provide EPA with the
opportunity to evaluate the new use and address any unreasonable risks to human health or the
environment. Data on other chemical substances with nanomaterials already being manufactured
would be required to be reported to EPA under TSCA §8(a). These proposals were developed by
OCSPP after extensive discussions with stakeholders and public outreach.

Outreach as been integral to OPPT’s nanotechnology activities. OPPT began its TSCA-related
nanotechnology outreach in 2005, when it convened a public meeting to discuss the regulatory
implications of manufactured nanomaterials. Later that year, OPPT engaged the National
Pollution Prevention and Toxics Advisory Committee (NPPTAC) in dialogue concerning
nanomaterials and TSCA, and later that year held a second public meeting focused on the
NPPTAC’s recommendations to EPA. Since that time, on regulatory and policy implications of
nanomaterials for TSCA, OPPT has engaged in numerous outreach activities with many diverse


12-P-0162                                                                                     18
stakeholders, ranging from the Transatlantic Consumer Dialogue to the American Chemistry
Council to Personal Care Products Council. In addition, OPPT has briefed many other federal
agencies, congressional staff, and state agencies, as well as interagency and government advisory
bodies such as ECOS, the NEHI, the President’s Council of Advisors on Science and
Technology, and the National Academy of Sciences. OPPT also has conducted focused outreach
for specific programmatic activities, such the NMSP and its draft TSCA significant new use and
information-reporting rules. In many of these outreach activities, OPPT and ORD staff have
collaborated and in some cases have given joint presentations, so that communication and
discussion of the Agency’s nanotechnology-related TSCA activities are conducted with full
appreciation for the interrelationships between the development of regulatory activities and the
evolving scientific understanding about the health and environmental implications of
nanotechnology.

Activities under FIFRA

The Agency has also undertaken multiple efforts under FIFRA with respect to the use of
nanomaterials in pesticides. These efforts can be described in three broad categories relating to
the development of scientific understanding of risk assessments for nanomaterials in pesticides,
the development of regulatory policies, and outreach to stakeholders.

Scientific Policies. Shortly after issuance of the 2005 draft White Paper, OCSPP’s Office of
Pesticide Programs (OPP) assembled an interdisciplinary team of scientists and regulatory
specialists to develop policies and procedures for the assessment and regulation of pesticides
containing nanomaterials. This group participated in intra-agency and interagency activities to
become familiar with the scientific and regulatory issues facing other regulatory programs.

In 2009, OPP sought the advice of its FIFRA Scientific Advisory Panel (SAP) on how to assess
the risk of pesticides containing nanosilver. The SAP is a federal advisory committee that
includes independent external scientist who provide advice on scientific issues arising in the
regulation of pesticides. The SAP advised OPP that nanosilver could have different properties
from ionic or bulk silver and therefore should be separately tested and evaluated.

Regulatory actions. Consistent with recommendations by the Government Accountability Office
(GAO) in its 2010 report, in June 2011 EPA published a Federal Register notice proposing a new
policy on how it will use its authority under FIFRA to oversee and gather information on
nanoscale materials in pesticide products. In that Notice, the Agency proposed to classify any
application for registration of a pesticide product containing nanomaterials as an application for a
“new” active or inert ingredient and described how it could use FIFRA §6(a)(2) or §3(c)(2)(B) to
gain information on what nanoscale materials are in pesticide products. This Notice generated
significant public interest. EPA received 159 public submissions, three of which contained
12,895 letters. The majority of commenters expressed support for EPA’s proposed policies.
OCSPP has reviewed the public comments and recently submitted a draft final policy to OMB
for interagency review.

OPP also is addressing individual pesticide products that contain nanomaterials. OPP has
received several applications for registration of new products that incorporate various

12-P-0162                                                                                         19
nanomaterials in pesticide products. One of the early applications proposed to register a product
containing nanosilver for use as a materials preservative on textiles. Following the SAP’s advice,
OPP developed a draft risk assessment for the pesticide. In 2010 EPA issued its risk assessment
for public comment as part of its proposed conditional registration of the nanosilver pesticide.
This was the first time that EPA had proposed to grant registration of a pesticide that explicitly
contained nanomaterial. The Agency received public comments on the proposed registration
from a broad spectrum of stakeholders, including private citizens and is in the process of making
a final decision on the registration.

In conjunction with its review of this nanosilver pesticide registration application, OPP has been
working to identify pesticides that contain nanomaterials that were not disclosed to EPA during
the registration process. EPA’s ability to know which currently registered pesticide actually
contain nanomaterials would be enhanced by finalization of the FIFRA policy discussed above.

OPP has also held numerous pre-submission meetings with potential applicants for the
registration of pesticide products containing nanomaterials. At these meetings, OPP works with
the companies to ensure they understand Agency’s registration process and the types of
information and data needed by the Agency to make the required statutory findings to register a
product.

Outreach. OPP has solicited extensive and frequent public comment on its actions relating to
nanomaterials, including at meetings of the Pesticide Program Dialogue Committee (PPDC) (a
committee consisting of members from academia, industry, non-governmental groups, and state
governments); the State FIFRA Issues Research and Evaluation Group (SFIREG); and the Tribal
Pesticide Program Council (TPPC). OPP also given presentations at and participated in
stakeholder forums to discuss its policy and regulatory thinking on nanomaterials, including, for
example, the September 2011 International Biocidal Products Directive Conference, the August
2011 Association of Structural Pest Control Regulatory Officials Conference, the April 2011
CropLife America meeting, the Responsible Industry for a Sound Environment (RISE) 2011
Spring Conference, and the May 2011 American Bar Association SEER Nano Governance
Program Planning Forum. Moreover, EPA presented its draft risk assessment of the nanosilver
pesticide product at multiple national scientific meetings, including the 2010 Society of
Environmental Toxicology and Chemistry annual meeting, the December 2010 Society for Risk
Analysis annual meeting, and the March 2011 American Chemical Society Spring meeting. In
addition, EPA’s assessment was presented at the May 2011 Joint Special Meeting of The
Toxicology Forum/Regulatory Governance Initiative: Nanoparticles: Tools for Toxicology.

Factual Errors About EPA’s TSCA and FIFRA Authority

Finally, the Draft Report contains several key factual errors that inaccurately characterize EPA’s
statutory authority under FIFRA and TSCA. For example, the Agency is responsible for
regulating nanomaterials used in pesticides under FIFRA and in industrial chemicals under
TSCA. However, the Draft Report incorrectly suggests that EPA has jurisdiction over several
other uses for nanomaterials, such as foods and drugs, which are expressly excluded from EPA’s
purview. In addition, the Draft Report does not discuss the fact that EPA’s authority under TSCA
extends to distribution in commerce, and the use and disposal of nanomaterials, and it fails to

12-P-0162                                                                                      20
discuss EPA’s TSCA authority for new chemicals. Further, the Draft Report does not make clear
that FIFRA does not authorize the Agency to regulate the manufacturing process for pesticides
containing nanomaterials, and it inaccurately states that that “several nanomaterials have been
found to be effective when used as pesticides.” Under FIFRA, EPA has not made any
determinations on the efficacy of nanomaterial products.

These errors are discussed in more detail in the attached technical comments, as are other errors
relating to other aspects of the Agency’s efforts on nanomaterials.

OIG Response: In the above comments, OCSPP has expressed concerns over an omission
related to TSCA authority, and the potential for incorrect interpretation of the report language
related to TSCA and FIFRA jurisdiction. The OIG does not view these as “factual errors.” To
ensure accurate interpretation of the language in the report, we made changes to the language
regarding TSCA and FIFRA jurisdiction and FIFRA responsibilities in chapter 1. We also
removed the statement “several nanomaterials have been found to be effective when used as
pesticides” to avoid the implication that EPA has made this claim. Additionally, we have
reviewed and incorporated as appropriate several of the suggested edits provided in OCSPP’s
detailed “Technical Comments” document.


Conclusion

In sum, EPA has been committed for several years to developing and taking action to ensure the
safe use of nanoscale materials, and to engaging and informing our stakeholders and the public
on these actions. We believe that recognition of the scope and extent of the Agency’s activities
regarding nanomaterials, and correction of the factual errors in the Draft Report would put your
report and its recommendation in better context.

Thank you again for the opportunity to comment on this Draft Report. OCSPP looks forward to
working with your office as the report is finalized and the recommendation implemented. If you
have questions, please feel free to contact Janet Weiner of my staff at (202) 564-2309.




12-P-0162                                                                                      21
                    Corrective Action Plan for Report No. OPE-FY11-001

               “EPA Cannot Effectively Assess or Manage Nanomaterial Risks”

                                          11/28/11

Recommendation to the Assistant Administrator, Office of Chemical Safety and Pollution
Prevention: Develop a process for dissemination and coordination of nanomaterials information
across relevant program offices.

  Specific Recommendation            Corrective Action                  Target Date
Develop a process to assure    By January 31, 2012, convene    January 31, 2012
the effective dissemination    a workgroup consisting of
and coordination of            representatives from all
nanomaterials information      relevant offices to begin
across relevant program        development of process.
offices.
                               Complete draft document         July 31, 2012
                               outlining process.




12-P-0162                                                                                 22
                                                                                  Appendix B

                                    Distribution
Office of the Administrator
Deputy Administrator
Acting Assistant Administrator for Chemical Safety and Pollution Prevention
Agency Follow-Up Coordinator
Agency Follow-Up Official (the CFO)
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Children’s Health Protection and Environmental Education
Audit Follow-Up Coordinator, Office of Chemical Safety and Pollution Prevention




12-P-0162                                                                                23
